Department of Homeland Security
   Ofﬁce of Inspector General

                    Gulf Coast Recovery: 

             FEMA's Management of the Hazard 

       Mitigation Component of the Public Assistance 

                          Program 





OIG-10-28                                     December 2009
                                                                       Office ofltl$pector General

                                                                       u.s. Department of Homeland Security
                                                                       Washington, DC 20528


                                                                       Homeland
                                                                       Security
                                         DEC 1 Q 2009


                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency Management
Agency's management of the hazard mitigation component of the Public Assistance Program within
the Gulf Coast states impacted by hurricanes Katrina and Rita in 2005. It is based on interviews
with Federal Emergency Management Agency, grantee, and subgrantee employees and officials;
direct observations; and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.


                                             ~'~O(.~
                                             Richard L. Skinner
                                             Inspector General
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................................1 


Background ..........................................................................................................................................2 


Results of Audit ....................................................................................................................................3 


     Management of Section 406–Hazard Mitigation.............................................................................3 

        Recommendations......................................................................................................................8 

        Management Comments and OIG Analysis ..............................................................................9 

     Challenges in Louisiana.................................................................................................................13 

        Recommendations....................................................................................................................16 

        Management Comments and OIG Analysis ............................................................................16 


Appendixes

     Appendix A:           Objective, Scope, and Methodology......................................................................17 

     Appendix B:           Management Comments to the Draft Report .........................................................19 

     Appendix C:           Projects Reviewed and Audit Issues ......................................................................23 

     Appendix D:           Section 406–Hazard Mitigation Eligibility and Funding Requirements................28 

     Appendix E:           Major Contributors to This Report ........................................................................29 

     Appendix F:           Report Distribution ................................................................................................30 


Abbreviations

     BCA                         benefit-cost analysis             

     CEF                         cost-estimating format              

     DHS                         Department of Homeland Security 

     FEMA                        Federal Emergency Management Agency 

     GCRO                        Gulf Coast Recovery Office 

     HMGP                        Hazard Mitigation Grant Program

     LATRO                       Louisiana Transitional Recovery Office 

     NEMIS                       National Emergency Management Information System

     OIG                         Office of Inspector General 

     PA Program                  Public Assistance Program 

     PO                          project officer               

     PPT                         Project Phase Tool 

     PW                          project worksheets                

     SOP                         standard operating procedure 

     TAC                         technical assistance contractor 

     TRO                         Transitional Recovery Office

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary

                This report addresses the Federal Emergency Management Agency’s
                management of the hazard mitigation component of its Public Assistance
                Program. We evaluated hazard mitigation activities in Louisiana, Mississippi,
                Alabama, and Texas after the widespread devastation and damage caused by
                hurricanes Katrina and Rita. Our objective was to determine whether the
                agency effectively managed grant funding for this public assistance
                component. Appendix A provides additional details regarding the audit
                objective, scope, and methodology.

                The Federal Emergency Management Agency continues to face challenges in
                managing public assistance–funded hazard mitigation work in the Gulf Coast
                region. Specifically, the agency needs to draw on lessons learned from past
                disasters to improve (1) overall oversight of program activities, (2) specific
                training on the Public Assistance Program’s hazard mitigation component,
                (3) plans for deploying trained staff to disaster-damaged areas, and
                (4) processes and procedures for developing project worksheets, including a
                requirement to document hazard mitigation scope of work and funding
                determinations. In addition, the Federal Emergency Management Agency
                faces challenges in Louisiana regarding the implementation of an effective
                hazard mitigation strategy that (1) improves delivery of hazard mitigation
                assistance to disaster-stricken communities, (2) improves coordination of
                project development with state officials, and (3) expedites project
                development and funding.

                Our report includes eight recommendations to improve the Federal
                Emergency Management Agency’s management of hazard mitigation
                measures funded through the Public Assistance Program. We also are
                questioning approximately $3.6 million in public assistance–funded hazard
                mitigation work that did not comply with federal regulations and Federal
                Emergency Management Agency guidelines.




                    Gulf Coast Recovery: FEMA's Management of the Hazard 

                     Mitigation Component of the Public Assistance Program 


                                            Page 1
Background

             Over the period August through November 2005, hurricanes Katrina, Rita,
             and Wilma battered the Gulf Coast region, caused unprecedented damage,
             devastated whole communities and neighborhoods, and left hundreds of
             thousands of people without shelter and employment. In their aftermath, the
             Federal Emergency Management Agency (FEMA) created the Gulf Coast
             Recovery Office (GCRO) and established Transitional Recovery Offices
             (TROs) in Alabama, Louisiana, Mississippi, and Texas to deliver and
             administer effective and consistent recovery programs. This included the
             identification of timely and effective hazard mitigation assistance to reduce
             future risks and to protect people and communities. On April 10, 2009, the
             Acting FEMA Administrator (1) announced the dissolution of the GCRO;
             (2) indicated that the Alabama, Mississippi, and Texas TROs had already
             transitioned back to their respective FEMA Regional Offices; and (3) said that
             the Louisiana TRO would continue to operate under its own leadership with a
             direct report to the FEMA Administrator.

             The Robert T. Stafford Disaster Relief and Emergency Assistance Act
             (Stafford Act), P.L. 93-288, gives FEMA the authority to fund the restoration
             of eligible facilities that sustained disaster damage. Section 406 of the
             legislation contains a provision for the discretionary funding of additional
             measures, not required by applicable codes and standards, that would enhance
             a facility’s ability to resist similar damage in future events. In providing this
             additional discretionary authority, Congress recognized that, during the repair
             of damaged components of facilities, there would be unique opportunities to
             prevent recurrence of similar damage from future, similar disaster events
             (“Section 406–Hazard Mitigation” or “406 Mitigation”).

             Although the law provides that the President may authorize funds for eligible
             hazard mitigation projects, it does not require funding. FEMA, grantee, and
             subgrantee interests in disaster assistance must be balanced with the
             supplemental nature of disaster assistance and FEMA’s obligation for the
             prudent stewardship of federal disaster funds. Once approved under Section
             406, the hazard mitigation component of the Public Assistance (PA) Program
             becomes a condition of federal disaster assistance and the applicant is required
             to perform the work.

             FEMA has specific policies for the effective implementation of
             406 Mitigation. Those policies require adequate inspection of damaged
             facilities and elements, and a proper evaluation and determination of eligible
             mitigation assistance and related scope of work. Appendix D provides
             additional details regarding the eligibility and funding requirements for
             Section 406–Hazard Mitigation projects.



                 Gulf Coast Recovery: FEMA's Management of the Hazard 

                  Mitigation Component of the Public Assistance Program 


                                         Page 2
Results of Audit

        As a result of the 2005 hurricanes, FEMA faced major challenges in delivering effective
        406 Mitigation assistance to grantees and subgrantees in the Gulf Coast states that sustained
        widespread damage. FEMA needs to improve its processes for ensuring effective oversight
        of 406 Mitigation work. In addition, FEMA still faces challenges in implementing an
        effective 406 Mitigation strategy in Louisiana.

        Management of Section 406–Hazard Mitigation

                At the onset of disaster recovery efforts after the hurricanes of 2005, identifying
                406 Mitigation opportunities was not a FEMA priority. FEMA personnel deployed to
                work on disaster recovery programs need additional training to ensure effective
                delivery of the PA Program, including the hazard mitigation component. Further,
                FEMA needs to strengthen its practices for recording, documenting, and funding
                406 Mitigation projects.

                         Program Management

                         The GCRO did not manage 406 Mitigation activities at the four TROs
                         effectively. FEMA established the GCRO to lead and coordinate recovery
                         and rebuilding efforts in the Gulf Coast region temporarily and to monitor the
                         TROs’ delivery of disaster assistance. FEMA also expected the GCRO to
                         ensure that FEMA programs were consistently and effectively administered. 1
                         However, GCRO did not make 406 Mitigation a priority during initial
                         inspections of damaged facilities and collected only limited statistical data
                         about PA activity, such as the number of project worksheets (PWs) processed
                         and funding obligated.

                         The Louisiana and Mississippi TROs did not follow established guidelines
                         and processes for implementing the 406 Mitigation activities because this
                         component of the PA Program was not a priority when initial inspections of
                         damaged facilities were performed. TRO officials explained that the
                         devastation was overwhelming and that priorities for field inspections were to
                         identify damaged elements quickly and develop scopes of work to return
                         damaged facilities to their pre-disaster condition. As a result, project repairs
                         often were performed before hazard mitigation work was identified.
                         Therefore, opportunities for 406 Mitigation assistance were potentially
                         eliminated. Since 406 Mitigation provides a unique opportunity to prevent
                         recurrence of similar damage from future, similar disaster events, FEMA
                         should improve its management of this PA Program component by developing


1
 March 15, 2007, Statement of Deputy Director of Gulf Coast Recovery before the House Appropriation Committee,
Subcommittee on Homeland Security.

                              Gulf Coast Recovery: FEMA's Management of the Hazard 

                               Mitigation Component of the Public Assistance Program 


                                                      Page 3
                          procedures that hold employees accountable for identifying and documenting
                          406 Mitigation work in PWs early in the recovery process.

                          The two TROs (Louisiana and Mississippi) could not monitor 406 Mitigation
                          work after the initial damage inspections because records supporting
                          inspections were incomplete and FEMA’s National Emergency Management
                          Information System (NEMIS) 2 did not provide an easy way to extract 406
                          Mitigation information from the system. TRO staff explained that because
                          NEMIS data were often inaccurate or untimely, ad hoc systems were
                          developed and used to produce information on 406 Mitigation work.
                          However, these systems were not always effective. Consequently, FEMA
                          missed opportunities for effective 406 Mitigation of damaged structures.

                          On April 10, 2009, FEMA dissolved the GCRO. As of that date, only the
                          Louisiana TRO remained in operation, and FEMA Regions IV and VI
                          absorbed the responsibilities of the Alabama, Mississippi, and Texas TROs.

                          FEMA needs to develop policies and procedures that require inspectors to
                          identify eligible 406 Mitigation work early in the disaster recovery process –
                          especially for catastrophic events. FEMA also needs to develop and adopt a
                          standardized management reporting process that provides timely, accurate,
                          and reliable information on 406 Mitigation activities.

                          Program Delivery and Staffing

                          According to disaster applicants in Louisiana and Mississippi, 3 FEMA project
                          officers (POs) did not always have the technical proficiency or training to
                          identify 406 Mitigation work. Some applicants said that FEMA’s practice for
                          rotating disaster personnel impacted 406 Mitigation program delivery. POs
                          are critical to the project formulation and funding process and are the primary
                          link between FEMA and disaster applicants. POs perform site inspections,
                          determine the level of disaster-related damage, develop scopes of work, and
                          identify hazard mitigation work eligible for financial assistance. In addition,
                          FEMA requires POs to collect all necessary information to support project
                          funding decisions.

                          There were concerns with the POs’ technical proficiency in determining eligible
                          406 Mitigation work during initial inspections or subsequently as disaster
                          recovery work began. Applicants noted that while some POs had knowledge of
                          engineering and construction practices, they did not fully understand the federal
                          requirements for identifying PA-funded hazard mitigation work. For example,
                          an official with a parish school said work delays and missed mitigation


2
  NEMIS records all project information, including PWs and supporting documentation, obligations, deobligations, and 

overall project status. 

3
  Under the PA Program, applicants who obtain assistance are formally identified as subgrantees. 


                               Gulf Coast Recovery: FEMA's Management of the Hazard 

                                Mitigation Component of the Public Assistance Program 


                                                        Page 4
                           assistance occurred because timely and accurate assistance could not be
                           obtained from the PO.

                           Although identifying 406 Mitigation measures was not an initial priority in
                           Louisiana and Mississippi, the POs’ level of training in and experience with
                           406 Mitigation before the disaster impacted their ability to identify
                           406 Mitigation work as disaster recovery progressed. The limited training the
                           TROs provided to POs with little or no practical experience in 406 Mitigation
                           did not improve the quality and completeness of the PWs. In some cases,
                           PWs omitted 406 Mitigation scopes of work when mitigation measures were
                           available or justifications for mitigation measures when project scopes
                           changed. Also, mitigation work was (1) inconsistently documented,
                           (2) identified as emergency work instead of permanent work, and (3) added
                           months after the disaster without subsequent inspection or further
                           documentation. In Louisiana and Mississippi, most of the POs were technical
                           assistance contractor (TAC) employees with little experience in
                           406 Mitigation Programs. 4 The TACs and FEMA management employees we
                           interviewed said that training should be enhanced to provide a more in-depth
                           review of the PA Program, including the 406 Mitigation component.

                           Frequent rotations of POs (primarily TACs) made it difficult to maintain an
                           orderly and consistent project formulation process because the work
                           performed and the records collected by the POs during the process did not
                           always transition to new POs. One applicant provided the same
                           documentation to at least four different POs. POs often rotated every 90 to
                           120 days and usually did not return to serve the same applicants. As a result,
                           control and maintenance of records collected during inspections were difficult.
                           FEMA needs to develop guidance for recordkeeping as rotations occur.

                           FEMA needs to improve training, personnel rotation practices, and control of
                           project records to ensure that project eligibility determinations are adequate
                           and federal funding is made available for eligible 406 Mitigation work.

                           Project Development Documentation

                           FEMA did not maintain appropriate documentation to support its decision to
                           fund 13 of 66 projects we reviewed. Project documentation is vital to support
                           the eligibility of the work and the funding provided to subgrantees for project
                           execution. Appendix C identifies the projects and the related audit issues,
                           which can be categorized as follows:

                                    Expected insurance proceeds were not offset against PW estimated
                                    costs, including costs associated with 406 Mitigation.


4
    In Louisiana, TACs comprised about 80% of the PO cadre.

                                Gulf Coast Recovery: FEMA's Management of the Hazard 

                                 Mitigation Component of the Public Assistance Program 


                                                        Page 5
       Project records did not have documentation to support 406 Mitigation
       funding.

       Project officials provided conflicting information regarding the
       eligibility of 406 Mitigation projects.

       The cost-estimating format was misapplied and resulted in replacing
       rather than repairing a facility.

In addition, FEMA staff prepared benefit-cost analyses (BCAs) to support the
cost-effectiveness of mitigation projects but did not maintain documentation
identifying the source and applicability of the data used in the calculations. For
example, one project in Louisiana had two BCAs prepared more than a year
apart. The first BCA produced a funding decision that supported
406 Mitigation work. Project records noted that a second BCA was required
because of increases in project scope and estimated costs. With assumptions
remaining the same, higher project costs should have produced a BCA that was
less cost-effective than the original BCA. However, the second BCA showed
greater cost-effectiveness than the first, and documentation to support that
decision was not available.

In some instances, because BCA computations included costs not associated
with the damaged elements of a facility, FEMA funded questionable
406 Mitigation projects. In other cases, because project documentation was
incomplete, we were unable to determine the adequacy and accuracy of BCA
calculations. FEMA should establish procedures for maintaining project
documentation used to perform BCA calculations.

Project Funding Determinations

Funding determinations were not always consistent with federal regulations
and FEMA guidelines for determining 406 Mitigation work eligibility. As
discussed below, use of a systems approach in Louisiana resulted in funding
determinations that appeared cost-effective because they included work
unrelated to the damaged elements of a facility. FEMA guidance limits
406 Mitigation funding to specific damaged elements of a facility.

Louisiana TRO (LATRO). LATRO’s 406 Hazard Mitigation Section
(406 Team) implemented a systems approach to 406 Mitigation. This
approach resulted in mitigation projects for both damaged and undamaged
elements of a facility.

Under the systems approach, the 406 Team concluded that when damaged
elements, such as windows and roofs, were part of a system in a damaged
facility, then funding could be provided for undamaged elements. For
example, the 406 Team recommended $12 million in 406 Mitigation funding

    Gulf Coast Recovery: FEMA's Management of the Hazard 

     Mitigation Component of the Public Assistance Program 


                            Page 6
                         for improvements to an undamaged berm that protected the New Orleans –
                         East Bank Waste Water Treatment Facility (project 16335). Project records
                         did not identify any 406 Mitigation work and attributed the damage to a flood
                         door that was left open, not to a failure of the berm.

                         The 406 Team’s decision to fund this project was based primarily on a desk
                         review of records obtained by the PO who performed the field inspection.
                         The 406 Team used its systems approach and developed a BCA that included
                         the costs to repair disaster-damaged buildings and the costs to upgrade the
                         berm. Late in the process, FEMA management discovered the error and took
                         action to deobligate funding. The applicant and state appealed FEMA’s
                         determination, and the issue is now in second appeal. 5

                         The following two instances illustrate how the 406 Team applied the systems
                         approach to fund ineligible hazard mitigation work, reversing decisions made
                         by POs that performed the onsite damage inspections.

                                  For project 14689 (1603-DR-LA), FEMA provided $2,932,276 in
                                  406 Mitigation funding for a hospital emergency backup generator
                                  system (redundancy project). In 2005, the existing backup generator
                                  system was repaired to pre-disaster condition, and FEMA denied
                                  funding for the redundancy project. However, in 2007, FEMA
                                  reversed its decision. To justify funding the project, FEMA prepared a
                                  BCA that considered the cost of the new system and an additional
                                  $6.4 million associated with other disaster damage caused by the
                                  failure of the existing backup generator system. Using these costs, the
                                  BCA supported the project’s cost-effectiveness and was used as
                                  FEMA’s justification for funding the project.

                                  For project 3704 (1603-DR-LA), FEMA provided $621,400 in
                                  406 Mitigation funding to repair bus and automobile maintenance
                                  equipment (lifts) damaged by flooding at a regional transit authority.
                                  A vendor provided repair estimates, and FEMA determined that hazard
                                  mitigation was not technically feasible. However, FEMA funded the
                                  replacement of the lifts based on apparent flood resistance of the
                                  newer model. Project records did not include a BCA analysis or
                                  support FEMA’s decision. Also, the manufacturer of the lifts told us
                                  that the new lift equipment offered no more flood resistance than the
                                  older lifts if flooding similar to that experienced with hurricane
                                  Katrina occurred.

                         Based on LATRO’s use of the systems approach, we question FEMA
                         obligations of $3,553,676 ($2,932,276 plus $621,400) because the scopes of

5
 According to Title 44, Code of Federal Regulations, Section 206.206, FEMA regions make first appeal determinations
and FEMA headquarters makes the second appeal determinations.

                               Gulf Coast Recovery: FEMA's Management of the Hazard 

                                Mitigation Component of the Public Assistance Program 


                                                       Page 7
                             work for the two projects did not meet 406 Mitigation eligibility requirements
                             (see appendix C for additional project details).

                             Alabama, Mississippi, and Texas TROs. These states had fewer 406
                             Mitigation projects and fewer errors in eligibility determinations. In
                             Mississippi, for example, a few projects initially identified for 406 Mitigation
                             became replacement projects and were funded with PA funds. Under federal
                             regulations, 6 FEMA can approve PA funds to replace a damaged facility when
                             the cost to repair the facility equals or exceeds 50% of the costs to replace it to
                             current codes and standards. Although we did not question any costs
                             associated with 406 Mitigation funding decisions in the Mississippi and Texas
                             TROs, we identified various administrative issues. We questioned a FEMA
                             obligation of $4,073 7 in 406 Mitigation work not completed by the City of
                             Mobile, Alabama (see appendix C for details).

                             Conclusion

                             406 Mitigation was not a priority in the early stage of disaster recovery
                             because of the significance of the devastation in Louisiana and Mississippi.
                             However, regardless of the level of damage caused by a disaster, FEMA needs
                             to ensure that its employees, whether full-time, intermittent, or contractor,
                             have the experience and training to identify and develop hazard mitigation
                             projects when deployed to field offices. In addition, deploying trained
                             personnel to disaster-damaged areas during a multistate event and holding
                             disaster employees accountable for effectiveness and efficiency is essential to
                             the success of 406 Mitigation. Lastly, FEMA needs to improve the process of
                             developing, recording, and documenting 406 Mitigation work to support the
                             cost-effectiveness of the work it deems eligible for mitigation funding.

                    Recommendations
                             We recommend that the Administrator, FEMA:

                             Recommendation #1: Develop policies and procedures that require
                             inspectors to identify eligible 406 Mitigation work early in the disaster
                             recovery process and develop and adopt a standardized management reporting
                             process that gives FEMA project managers timely, accurate, and reliable
                             information on 406 Mitigation activities.

                             Recommendation #2: Establish training guidelines to ensure that staff
                             (including TACs) are knowledgeable in FEMA’s 406 Mitigation policies and
                             procedures, including identifying and recording 406 Mitigation data in
                             NEMIS.

6
    Title 44, Code of Federal Regulations, Section 206.226(f).
7
    PW 1580; 1605-DR-AL.

                                  Gulf Coast Recovery: FEMA's Management of the Hazard 

                                   Mitigation Component of the Public Assistance Program 


                                                           Page 8
     Recommendation #3: Modify PA Program technical assistance agreements
     to mitigate project formulation problems caused by frequent TAC employee
     rotations and develop guidance for managing and transitioning site inspection
     project records as rotations take place.

     Recommendation #4: Establish procedures for maintaining project
     documentation, including documentation used to perform BCA calculations,
     before funding 406 Mitigation proposals, and ensuring that 406 Mitigation
     eligibility determinations are correct and performed in a timely manner.

     Recommendation #5: Require LATRO to disallow the $3,553,676 of
     questionable obligations resulting from the use of the systems approach.

     Recommendation #6: Require FEMA Region IV to disallow $4,073 for
     406 Mitigation work not completed by the City of Mobile, Alabama.

Management Comments and OIG Analysis
     Appendix B provides the complete text of FEMA's responses to these six
     recommendations. FEMA officials concurred with Recommendations #1, #2,
     #4, and #6 but did not concur with Recommendations #3 and #5. Synopses of
     FEMA comments and our analysis of those comments are provided below.

     Recommendations #1, #2, and #4

     FEMA officials concurred and convened a Section 406 Hazard Mitigation
     National Workgroup in September 2009 to (1) develop national guidance
     consisting of standard operating procedures (SOPs) and protocols for
     evaluating 406 Mitigation opportunities, (2) adopt the Mitigation Directorate's
     Benefit/Cost Analysis (BCA) methodology for 406 Mitigation projects, and
     (3) develop a staffing and training plan to increase the pool of trained and
     experienced 406 Mitigation specialists.

     FEMA officials said that the national guidance will address the hazard
     mitigation specialist's role in preliminary damage assessments and kickoff
     meetings in order to assess 406 Mitigation opportunities and review projects
     early in the process. In addition, FEMA has developed a standardized
     management report, Public Assistance Mitigation Profile, in the Emergency
     Management Mission Integrated Environment that provides hazard mitigation
     project details by category, size of project, dollar amount, and percentage of
     total projects for the disaster.

     Regarding procedures for maintaining project documentation, FEMA officials
     said that in August 2009, a memorandum was issued stating that the PA
     Program plans to adopt a consistent BCA methodology to support and

         Gulf Coast Recovery: FEMA's Management of the Hazard 

          Mitigation Component of the Public Assistance Program 


                                 Page 9
encourage cost-effective mitigation. In addition, FEMA will revise its
Disaster Assistance Policy 9526.1, Hazard Mitigation Funding Under Section
406 (Stafford Act), as necessary to reflect the new methodology.

The actions planned or taken, as summarized above, meet the intent of
Recommendations # 1, #2, and #4. We consider these recommendations
resolved but open pending review and evaluation of FEMA's more detailed
corrective action plan to be provided subsequent to the issuance of this report.

Recommendation #3

FEMA officials did not concur with this recommendation. They said that the
development of national guidance for all PA staff to adhere to in the field will
accomplish the goal without the need to modify the TAC agreements. They
further said that the SOP currently under development will provide guidance
on document management including the transfer of files and information
between project officers or PA coordinators (permanent, temporary, or
contractor employees) prior to rotating out of a joint field office.

FEMA action to develop a SOP that will provide document management
guidance on the transfer of files and information during staff transitions
satisfies the intent of this recommendation. While the guidance will be
provided to all individuals (including TAC employees) involved in
406 Mitigation, the SOP should include procedures that ensure the guidance is
carried out. Although FEMA did not concur, its action satisfies the intent of
the recommendation. Therefore, we consider the recommendation resolved
but open pending receipt and evaluation of the SOP.

Recommendation #5

As discussed below, FEMA officials did not concur that LATRO should
disallow nearly $3.6 million of questionable 406 Mitigation costs that resulted
from using a systems approach to determine the cost-effectiveness of projects.

   FEMA comments on project 14689 (Touro Infirmary, 1603-DR-LA).
   FEMA officials provided information on two separate mitigation
   proposals – one proposal dealing with a fuel filtration system to mitigate
   against damages caused by contaminated fuels, and one proposal dealing
   with a looped electrical distribution network combined with automatic
   switching equipment that would mitigate against damages caused by
   overloading the backup generators.

   For the first proposal, FEMA officials said that LATRO reviewed 14 PWs
   containing the damages caused by the loss of environmental control due to
   failure of the emergency power generator system and concluded this
   damage would not have occurred if the generator system continued to

    Gulf Coast Recovery: FEMA's Management of the Hazard 

     Mitigation Component of the Public Assistance Program 


                           Page 10
function. FEMA recalculated the BCA using 13 of the 14 PWs and stated
the recalculated BCA still resulted in a cost-effective 406 Mitigation
project.

For the second proposal, FEMA officials said that the work performed was
a cost-effective mitigation project per Section [1]E.8 of the appendix to
FEMA Policy 959521.1, Hazard Mitigation Funding Under Section 406,
(Stafford Act).

OIG analysis. We disagree with FEMA's position that the project was
cost-effective and therefore eligible fort 406 Mitigation funding. The two
mitigation measures discussed in FEMA's response go hand-in-hand as
justification for the funding provided in 2007 of the looped distribution
capability. PW 14689 identified the damaged element of the emergency
power generator system as a clogged fuel line between the ground tank
and the generator day tank that resulted in the system taking in fuel
contaminated with particles of sand. Damage repairs performed in 2005
included replacing filters, oils, batteries, and fluids at a total cost of
$14,430.

FEMA’s comments noted that the claimed costs associated with 13 PWs
served as the basis for its determination that the project was cost-effective.
However, many of the costs included in the BCA computation were
unrelated to the clogged fuel line bringing that calculation into question.
Examples of the unrelated work included: (a) cleanup of Main Hospital
PW#2292 – $1,753,055; (b) Main Hospital Carpet PW#2452 – $260,844;
(c) Main Hospital Complex Ceiling Tile replacement PW#2475 –
$988,539; and (d) Replacement of Telecom Switching Equipment
PW#4890 – $632,904. These disaster costs resulted from the facility
being physically compromised by the hurricane and were not directly
attributable to the clogged fuel line.

Although FEMA policy allows for the installation of looped electrical
distribution service or other redundancies in the electrical service to
critical facilities, other criteria must be met. Specifically, the same
appendix to Disaster Assistance Policy 9526.1 referenced in FEMA's
response says that certain infrastructure systems (including electrical
power distribution systems) are determined to be cost-effective if they:

       Do not exceed 100% of project cost,
       Are appropriate to the disaster damage,
       Will prevent future similar damage, and
       Are directly related to the damaged eligible elements.




Gulf Coast Recovery: FEMA's Management of the Hazard 

 Mitigation Component of the Public Assistance Program 


                       Page 11
   Paragraph 7.a. of the policy says “The mitigation measures must be related
   to eligible disaster-related damages and must directly reduce the potential
   of future, similar disaster damages to the eligible facility.”

   PW 14689, Version 0, Special Consideration #5, page 6 of 15, referred to
   the mitigation proposal and noted “a lack of a fuel filter assembly between
   the ground tank and day tanks caused the damage. The loop system
   would not have prevented the damage.”(emphasis added) FEMA's
   initial analysis recognized that contaminated fuel and an inadequate
   filtering system caused the damage to the emergency power generator
   system. In addition, electrical demand after the disaster did not represent a
   catastrophic problem since the hospital’s staff manually transferred the
   electric load to a remaining generator after the first two generators shut
   down.

   We assert that mitigation measure taken: (a) did not resolve the potential
   of future, similar disaster damages to the electrical system should the only
   source of diesel fuel again prove to be contaminated and (b) was not cost-
   effective since disaster damages unrelated to the clogged fuel line were
   included in the BCA computation. Therefore, we question the $2,932,276
   expended for the mitigation measure.

   FEMA comments on project 3704 (Regional Transit Authority, 1603­
   DR-LA). FEMA officials said that since the original proposal in 2006, the
   subgrantee has provided design information that shows the proposed work
   is eligible as a "least cost alternative" and as such, does not require 406
   Mitigation funding. These officials also said that Hazard Mitigation Grant
   Program funds committed to this project would be deobligated as FEMA
   moved forward with the scope alignment process for restoring the facility.

   OIG analysis. The finding addresses 406 Mitigation funding to repair bus
   and automobile maintenance equipment damaged by flooding. FEMA's
   action to deobligate the mitigation funds committed to this project
   satisfactorily addresses $621,400 of the $3,553,676 we questioned. This
   assumes that the amount FEMA disallows relates to 406 Mitigation
   funding rather than the Hazard Mitigation Grant Program (Section 404)
   funding referred to in FEMA's comment.

Based on our analysis of FEMA's response to this recommendation and the
additional comments we provide above, we consider Recommendation #5
unresolved.




    Gulf Coast Recovery: FEMA's Management of the Hazard 

     Mitigation Component of the Public Assistance Program 


                           Page 12
           Recommendation #6

           FEMA officials consider this recommendation resolved because the
           subgrantee, the City of Mobile, Alabama, completed the 406 Mitigation
           portion of the project in 2008.

           At the time of our fieldwork, the City of Mobile had repaired (rather than
           replaced) a generator damaged by flooding but had not elevated it as specified
           in project 1580 (1605-DR-AL). Although FEMA officials did not comment
           on how it verified that the work had been accomplished (inspection or
           subgrantee certification), their responses indicate that the work was
           completed, thus mitigating against of future flooding damage. Therefore, we
           consider the recommendation resolved and closed.

Challenges in Louisiana
           LATRO used various strategies to implement the 406 Mitigation component
           of the PA Program in Louisiana, but these strategies did not produce desired
           results. Identifying and funding 406 Mitigation work early in disaster
           recovery was inconsistent and resulted in delays in reconstructing critical
           facilities. LATRO needs to develop a strategy and standard operating
           procedures (SOPs) that address (1) project scope corrections, (2) development
           and funding of additional 406 Mitigation work, and (3) the benefits available
           to the state and the applicants by the partnering of 406 Mitigation work with
           the Hazard Mitigation Grant Program (HMGP, or 404 Mitigation).

           406 Mitigation Strategy

           LATRO implemented a 406 Database Mining program in March 2007
           because potentially eligible hazard mitigation work had not been identified
           early in the recovery process. The mining effort included (1) a desk review of
           approved PWs, (2) identification of damaged elements, and (3) application of
           mitigation solutions to those elements. During a 6-month period, LATRO
           staff reviewed approximately 6,000 PWs and identified about 700 projects
           that had hazard mitigation possibilities. Because many of the possibilities
           were no longer eligible for 406 Mitigation consideration because disaster
           repairs had already been completed, LATRO terminated this time-consuming
           effort.

           Next, LATRO placed mitigation specialists with POs in the field. However,
           because the process did not produce significant results and the work became
           overwhelming for the few mitigation specialists assisting the many POs,
           LATRO terminated this effort.

           In March 2008, LATRO began training LATRO and state field personnel on
           406 Mitigation, and jointly with the state, drafted an SOP on how

               Gulf Coast Recovery: FEMA's Management of the Hazard
                Mitigation Component of the Public Assistance Program

                                      Page 13
406 Mitigation should be managed in Louisiana. In January 2009, LATRO
informed us that the final draft SOP had been provided to the state. The SOP
describes a process for (1) identifying and communicating feasible and
cost-effective 406 Mitigation work to applicants, (2) establishing uniform
goals and expectations, (3) tracking and reporting projects, and (4) training
field staff. At the conclusion of our fieldwork, the SOP was pending state
approval.

LATRO’s 406 Mitigation strategy and SOP should address:

   (1) How and when project scope corrections will be handled,

   (2) Steps that can be taken to expedite project development for applicants
       with cash flow difficulties, and

   (3) The benefits available to the state and applicants by partnering the
       406 Mitigation component of the PA Program with the HMGP.

Project Scope Corrections. LATRO initiated a project scope realignment
process (PW scope of work and funding revisions) applicable to eligible
unfinished work because some previously approved 406 Mitigation projects
were not developed using best practices and some projects contained errors or
may have been undervalued. This occurred, in part, because some POs did
not physically inspect damaged facilities but rather relied on the damages
identified by insurance adjusters who may not have been familiar with
406 Mitigation work eligibility requirements. Other scope corrections being
considered by LATRO relate to eligible repair work inappropriately identified
as 406 Mitigation work, changes in material and cost estimates that made a
mitigation project not cost-effective, and eligible work to meet Americans
With Disabilities Act requirements.

Project scope realignment is a time-consuming effort for LATRO staff and
applicants. LATRO estimates that at least 4,700 PWs with 406 Mitigation
need realignment.

Project Development. Immediately following the hurricanes of 2005, the state
and many applicants experienced financial instability, cash flow difficulties,
personnel shortages, and building material and contractor shortages, all of
which impacted project development. LATRO’s continued involvement with
the state and applicants, and a moderate increase in available contractors, has
helped the state and many subgrantees to move forward with reconstruction.
However, cash flow difficulties continue to delay developing scopes of work
for some subgrantees.

While initial federal funding for public assistance was 75%, P.L. 110-28
§ 4501 increased the federal share of assistance to 100% for eligible costs

    Gulf Coast Recovery: FEMA's Management of the Hazard 

     Mitigation Component of the Public Assistance Program 


                           Page 14
applied for before May 25, 2007. Despite the 100% funding provided under
P.L. 110-28, FEMA generally requires subgrantees to incur repair and
reconstruction costs before seeking reimbursement from the grantee. In
addition, some local ordinances require subgrantees to have funds available
before awarding contracts for design or construction work. Consequently,
applicants with cash flow difficulties cannot commit to projects, including
projects with a 406 Mitigation component, until they have cash to cover the
costs before seeking reimbursement from the state. Applicants who
implemented 406 Mitigation measures explained that a key to their success
was obtaining funding from sources other than FEMA. One applicant used
bond money, and others drew lines of credit from banks to begin repairs.
LATRO officials noted that they are working with applicants to expedite
project development and PW preparation.

Partnering Hazard Mitigation Programs. Louisiana needs to expand the
partnership between the 406 Mitigation component of the PA Program and the
HMGP. Unlike 406 Mitigation funding, which is limited to disaster-damaged
elements of public facilities, HMGP funds are available for disaster-related
and non-disaster-related projects identified by the state.

As part of recovery efforts in the Gulf Coast states, in January 2007, FEMA
headquarters implemented a post disaster Partnering Mitigation Program
initiative to maximize the use of 406 Mitigation and HMGP funding. In
Louisiana, FEMA and state efforts to partner both 406 Mitigation and HMGP
funding did not begin until the latter part of 2008 because $1.1 billion of the
$1.5 billion in HMGP funds awarded to the state was earmarked to the state’s
Road Home Homeowner Assistance Program.

In June 2008, Louisiana released $320 million of the $1.1 billion allocated to
the Road Home program to fund HMGP projects. As of that date, Louisiana
had more than $700 million in HMGP funds that could be partnered with
406 Mitigation funding. In January 2009, FEMA officials explained that the
partnering program in Louisiana had began to produce results, as the state had
earmarked HMGP funding to specific localities, including critical projects in
New Orleans. Expanding the partnership of these two hazard mitigation
programs would make more funding available to reduce the likelihood of
future losses from natural disasters and ensure the continued functionality of
critical services and facilities after a disaster event similar to the hurricanes of
2005. In addition, the need for federal assistance for future disasters should
decrease as a result of effective mitigation measures taken during the repair
and reconstruction process in Louisiana.

Conclusion

LATRO is making progress implementing 406 Mitigation. This effort
includes (1) changing the management of the program, (2) training field

    Gulf Coast Recovery: FEMA's Management of the Hazard 

     Mitigation Component of the Public Assistance Program 


                           Page 15
     personnel, (3) revaluating previous eligibility determinations, (4) working
     with applicants to overcome cash flow difficulties impacting project
     development, and (5) partnering 406 Mitigation with HMGP funding to
     provide cost-effective mitigation measures to protect public facilities from
     future disaster damage.

Recommendations
     We recommend that the Administrator, FEMA:

     Recommendation #7: Require that, within 60 days, LATRO complete the
     development and issuance of a 406 Mitigation strategy that describes the steps
     to be taken in (a) reevaluating previously approved project scopes of work,
     (b) deobligating unneeded or ineligible funding, and (c) maximizing the use of
     406 Mitigation and HMGP funding to protect public facilities from future
     disaster damage.

     Recommendation #8: Require that, within 60 days, LATRO (1) finalize and
     implement SOPs that will improve delivery of 406 Mitigation, (2) improve
     coordination for project development with state officials, and (3) expedite
     project development and funding.

Management Comments and OIG Analysis
     Appendix B provides the complete text of FEMA's responses to these two
     recommendations. FEMA officials concurred with both recommendations
     and provided us with the current versions of its strategy for implementing the
     406 Mitigation program and the FEMA/GOHSEP-developed SOP. These
     officials said that the SOP is a living document that is evolving and changing
     as FEMA and GOHSEP move forward, and they are continuing to refine
     acceptable metrics for 406 Mitigation performance and delivery. We consider
     both recommendations resolved and closed.




         Gulf Coast Recovery: FEMA's Management of the Hazard 

          Mitigation Component of the Public Assistance Program 


                                Page 16
Appendix A
Objective, Scope, and Methodology

                    We audited FEMA’s management of the hazard mitigation component of the
                    PA Program (406 Mitigation) during the Gulf Coast region recovery process.
                    The objective of the audit was to determine whether FEMA effectively
                    managed PA Program hazard mitigation grant funding across the Gulf Coast
                    region following the 2005 hurricanes.

                    We evaluated FEMA’s delivery of 406 Mitigation funding through its PA
                    Program to the Gulf Coast states devastated by hurricanes Katrina and Rita.
                    We evaluated program oversight; management tools used to measure progress
                    and success; project development, including site inspections and PW
                    preparation; and staffing. We also documented the challenges that FEMA
                    faces in the overall Gulf Coast region recovery process.

                    We performed the audit under the authority of the Inspector General Act of
                    1978, as amended, and according to Government Auditing Standards issued
                    by the Comptroller General of the United States. These standards require that
                    we plan and perform the audit to obtain sufficient, appropriate evidence to
                    provide a reasonable basis for our findings and conclusions. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objective.

                    To accomplish our objective, we visited FEMA’s Gulf Coast Recovery Office,
                    Transitional Recovery Offices, FEMA Regions IV and VI, and several
                    grantees and subgrantees. At each location, we interviewed responsible
                    officials regarding the overall delivery and effectiveness of the 406 Mitigation
                    component of the PA Program. We also reviewed NEMIS information,
                    management reports, PWs, and project records. We performed other auditing
                    procedures considered necessary under the circumstances.

                    We selected the highest value 406 Mitigation projects for review, and
                    interviewed appropriate state and local officials responsible for those projects.

                                                            Project     406 Mitigation
                               Projects    Applicants/      Dollars        Dollars        Applicants
                      States   Selected    Subgrantees     (millions)     (millions)     Interviewed
                       LA         20           15           $249.5              $56.4         8
                       MS         14            8             81.8               14.5         8
                       TX         24            3             22.5                3.1         3
                       AL          8            4             17.1               10.0         4
                       Total      66           30           $370.9              $84.0         23

                    We also considered FEMA’s efforts to complete projects by combining
                    406 Mitigation and HMGP funding, but we did not evaluate FEMA’s
                    effectiveness in managing the HMGP in the Gulf Coast region.



                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 17
Appendix A
Objective, Scope, and Methodology

                    We held an exit conference on January 12, 2009, with FEMA’s Gulf Coast
                    Recovery Office officials. We gave those officials a written summary
                    detailing audit results and proposed recommendations, and the officials
                    provided verbal and written responses to the findings but not to the
                    recommendations.




                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 18
Appendix B 

Management Comments to the Draft Report.





                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 19
Appendix B 

Management Comments to the Draft Report.





                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 20
Appendix B 

Management Comments to the Draft Report.





                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 21
Appendix B 

Management Comments to the Draft Report.





                        Gulf Coast Recovery: FEMA's Management of the Hazard 

                         Mitigation Component of the Public Assistance Program 


                                               Page 22
Appendix C
Projects Reviewed and Audit Issues

Louisiana
      #1           LA, Superdome (1603-DR-LA, PW 2205, $16 million)
Scope of work:     Install a roofing system to code requirements, furnish PBX box and elevate to second
                   floor, and replace 448 damaged plastic laminate toilets.
 Audit Issue:      Administrative: No allocation of insurance proceeds. Facility was insured at the time of
                   the disaster; however, estimated costs in the PW were not netted for expected insurance
                   proceeds.

      #2         UNO Kieffer Lakefront Arena (1603-DR-LA, PW 4831, $543,568)
Scope of work: 	 The applicant (FP&C) proposes to add 156 18'8" steel reinforcing beams to provide
                 additional reinforcement points of support for the facility’s fascia, soffit, and lower roof.
                 The proposed mitigation measures (additional support) will increase the wind resistance
                 to a rating of 135 MPH, a 50% increase in wind resistance.
 Audit Issue:	   Administrative: No allocation of insurance proceeds. Facility was insured at the time of
                 the disaster; however, estimated cost in PW was not reduced for expected insurance
                 proceeds.

     #3          HR LSUHSC Lion’s Eye Clinic (1603-DR-LA, PW 9289, $8.2 million)
Scope of work: 	 Mitigation of architectural; essential mechanical, electrical, and plumbing (MEP);
                 nonessential MEP; operating theater; and contents of the Lion’s Eye Cohn Learning
                 Center, caused by flooding as a result of hurricane Katrina.
 Audit Issue:	   Administrative: No allocation of existing insurance. Facility was insured at the time of
                 the disaster; however, estimated cost in PW was not reduced for expected insurance
                 proceeds.
 Audit Issue :	 Administrative: Project records did not have documentation describing disaster
                 damage. The information in the PW and related project records was not sufficient to
                 determine the magnitude and dimensions of the damage being mitigated. We could not
                 determine the nature of the 406 Mitigation funding or the project’s cost-effectiveness.

     #4            East Bank Wastewater Treatment Facility (1603-DR-LA, PW 16335, $12 million)
Scope of work:     Raising existing protective earthen berm surrounding the plant from approximately
                   12 feet to 18 feet.
 Audit Issue:	     Administrative: Project records identified conflicting eligibility opinions by FEMA
                   officials. The berm received minor damage as a result of the disaster. Overall, the
                   flooding of the facility was caused when a floodgate failed. Under the 406 Mitigation
                   Program, only damages caused by disaster are eligible for funding. While FEMA
                   eventually denied funding for the project, the applicant appealed FEMA’s determination.
                   The applicant’s decision to appeal appears to be caused by conflicting information
                   provided by FEMA employees.

      #5         Lafitte Elementary School (1603-DR-LA, PW 9866, $626,522)
Scope of work: 	 Three building roofs (Annex, Main, and Cafeteria) were damaged to varying degrees. A
                 mitigation proposal was written to replace all three roofs to establish a wind resistance
                 guarantee.




                             Gulf Coast Recovery: FEMA's Management of the Hazard 

                              Mitigation Component of the Public Assistance Program 


                                                    Page 23
Appendix C
Projects Reviewed with Audit Issues


 Audit Issue:    Administrative: Roof replacement for three buildings not supported with
                 documentation.
                 Documentation in the PW states that the architect’s estimate for square footage of roof
                 repairs was not used. The documentation provides no explanation for this change or
                 justification for the revised square footage of repairs. The damaged roof area recorded in
                 the mitigation proposal did not match the area of roof replaced.

      #6         LA, Touro Infirmary (1603-DR-LA, PW 14689, $2.9 million)
Scope of work:   The cost to repair the plugged fuel lines totaled $14,430. The hazard mitigation work
                 consisted of replacing the existing emergency generator system with a looped
                 distribution service for redundancy. Key component changes: (a) generators – 500K VA
                 replaced with 750 KVA, (b) increase the fuel storage capacity, (c) redesign the diesel
                 fuel pumping scheme, and (d) associated construction.
 Audit Issue:    Cost Questioned: Repairs and expansion beyond the damaged elements. FEMA
                 provided $2,932,276 in 406 Mitigation funding for a hospital emergency backup
                 generator system; and $14,430 to repair and replace filters and fluids for an existing
                 generator system that was reported as damaged by the disaster.

                 In November 2005, the hospital requested FEMA funding to replace the existing
                 generator system with a state-of-the-art redundant system (electrical mechanical and fuel
                 system). FEMA denied the request as not eligible for 406 Mitigation funding and noted
                 that the damage to the existing system was not disaster related but was caused by lack of
                 a fuel filter assembly. FEMA concluded that the proposed new system would not
                 prevent damage if an event similar to hurricane Katrina occurred.

                 However, in May 2007, FEMA approved the redundancy project. To justify funding the
                 project, FEMA prepared a BCA that considered the cost of the new system (14 PWs) and
                 an additional $6.4 million (15 PWs) associated with other disaster damage caused by the
                 failure of the existing backup generator system. Using these costs, the BCA yielded a
                 favorable result and was used to justify funding the redundant system.

                 We question the $2,932,276 in funding for the redundant system because the project did
                 not meet federal eligibility requirements for 406 Mitigation. The disaster did not damage
                 the backup generator system or cause its failure. In addition, the state-of-the-art
                 redundant system will not prove any more effective should the reliable supply of diesel
                 fuel again become a problem.
                 Administrative: Justification based on a broad definition of damaged elements. The
                 406 Hazard Mitigation Group generated a hazard mitigation proposal based on FEMA’s
                 incurred claimed costs of $6.4 million for 14 hospital repair PWs. Many of those costs
                 were unrelated to the generator failure. Those unrelated costs included: (a) cleanup of
                 Main Hospital PW#2292 – $1,753,055; (b) Main Hospital Carpet PW#2452 – $260,844;
                 (c) Main Hospital Complex Ceiling Tile replacement PW#2475 – $988,539; and
                 (d) Replacement of Telecom Switching Equipment PW#4890 – $632,904.

     #7.         LA, Regional Transit Authority (1603-DR-LA, PW 3704, $621,400)
Scope of work:   Replace 13 bus lifts with a new self-contained modular unit. The new system uses the
                 latest environmental protection capabilities. It is flood resistant because the system is
                 totally contained in a steel enclosure and protected with an “enviroguard” protective

                           Gulf Coast Recovery: FEMA's Management of the Hazard 

                            Mitigation Component of the Public Assistance Program 


                                                  Page 24
Appendix C
Projects Reviewed with Audit Issues

                 coating.

 Audit Issue:	   Cost Questioned: Eligible claimed repair cost not determined. FEMA provided
                 $621,400 in 406 Mitigation funding to repair bus and automobile maintenance equipment
                 damaged by flooding at a regional transit authority (authority). The flooding resulted in
                 13 bus lifts and 5 light-duty automobile lifts being submerged in oily, corrosive
                 floodwaters for approximately 2 weeks.

                 A vendor provided repair estimates ranging from $20,000 (clean and repair) to $67,000
                 (clean, repair, and replace cylinders), and told the authority that newer automobile lifts
                 systems offered an in-ground coated housing that protected against corrosive effects of
                 immersion in water. FEMA field staff who inspected the damage determined that
                 “hazard mitigation was considered but not technically feasible to seal underground lifts
                 from another flood event.” However, despite its earlier determination, FEMA provided
                 the authority with $621,400 in 406 Mitigation funding to replace the bus lifts with the
                 newer model.

                 Although the required BCA was not found in FEMA’s project records, FEMA justified
                 and funded the replacement of the lifts based on the apparent flood resistance of the
                 newer model. However, the manufacturer of the lifts told us that the new equipment
                 offered no more flood resistance than the older lifts if flooding similar to that
                 experienced with hurricane Katrina occurred.

                 We question the $621,400 because the work did not meet federal eligibility requirements
                 for 406 Mitigation. Even with a broad interpretation of 406 Mitigation funding criteria,
                 it is unlikely that this project would provide a cost-effective mitigation measure to
                 prevent future damage. FEMA should have considered the replacement of the bus lifts
                 as an improved project and limited funding to the cost of repairing the lifts to their
                 pre-disaster condition (maximum of $67,000).
                 Administrative: Project documentation does not support hazard mitigation benefit claim.
                 The new system is “flood resistant” because the system is totally contained in a steel
                 enclosure and protected with an “enviroguard” protective coating. However, we were
                 unable to locate in either the company’s literature or through contacting the company the
                 basis for the assertion that the new lifts had “flood-resistant” properties. The only
                 supportable assertion is that the containment housing protects against ground water.

      #8         Orleans Parish Criminal Sheriff’s Office (1603-DR-LA, PW 4876, $9.4 million)
Scope of work:   Wind and flood damage to two detention facilities, identified as Templeman 3 and 4.
 Audit Issue:    Administrative: Cost-estimating format (CEF) calculations with errors used to justify
                 replacement of the damaged facility. This error resulted from not properly computing
                 the project’s midpoint of construction. Either the number of months FEMA used for the
                 escalation factor did not agree with the information recorded in the CEF Notes, or the
                 stated assumptions did not have the required detail. For example, the CEF Notes
                 identified a factor of 14 months to the midpoint of construction. However, the factor
                 actually applied was 24 months. CEF calculations were improperly used to justify
                 facility replacement.




                            Gulf Coast Recovery: FEMA's Management of the Hazard 

                             Mitigation Component of the Public Assistance Program 


                                                   Page 25
Appendix C
Projects Reviewed with Audit Issues

Mississippi
       #9           Hancock Medical Center (1604-DR-MS, PW 7082, $12,914,832)
 Scope of work:     Repair, remove, and replace ceilings, tiles, walls, etc., for the main hospital building
                    including a 406 Mitigation proposal of $8.8 million dollars to fund entirely a new
                    building to house the Operating Room, Emergency Room, Imaging Laboratory, and
                    Service Laboratories, including considerable amounts of ancillary spaces.
  Audit Issue:      Administrative: FEMA’s quality control/quality assurance review process for project
                    formulation needs improvement. FEMA approved $8.8 million in 406 Mitigation
                    funding for the project. Records indicated that more than a year after the funding was
                    approved, FEMA informed the applicant that the scope of work was not eligible for
                    406 Mitigation, deobligated the funding, and requested that the applicant submit a
                    revised scope of work. FEMA will reimburse the applicant about $165,000 in costs
                    incurred in error.

Alabama
      #10           Alabama State Port Authority (1605-DR-AL, PW 1289, $15 million)
 Scope of work:     Debris removal and disposal, dredge/re-excavate an equipment access channel, and
                    dump and shape unclassified material, including hazard mitigation proposal of
                    $9.5 million for riprap at Gaillard Island.
  Audit Issue:      Administrative: BCA calculations not adequately supported. Because of insufficient
                    documented evidence supporting changes to BCA calculations, we were unable to
                    determine the adequacy of $3.6 million in 406 Mitigation funding for this project.

      #11           City of Mobile (1605-DR-AL, PW 1580, $22,800)
 Scope of work: 	   Remove and dispose of a 500 KVA transformer damaged by the disaster. Install a new
                    500 KVA transformer and raise it on a steel stand. Installation to include additional
                    stranded copper wire.
  Audit Issue:	     Cost Questioned: Repair work omitted 406 Mitigation. FEMA provided $4,073 in
                    406 Mitigation funding for work on a small project; however, the work was not
                    performed. The original project was to replace and elevate a 500 KVA transformer at
                    an estimated cost of $22,000. The applicant repaired the transformer but did not
                    elevate it to meet the 406 Mitigation funding requirements. Therefore, we question the
                    $4,073 in 406 Mitigation funding provided for this project.

Texas
        #12         Memorial Herman Baptist Hospital (1606-DR-TX, PW 2471 - $1.2 million, PW 3187
                    – $6.1 million, PW 3241 - $5.9 million)
 Scope of work: 	   Repairs to various buildings.
  Audit Issue:	     Administrative: Disproportional allocation of insurance proceeds. The applicant did
                    not allocate the insurance proceeds proportionally among all insured risks based on
                    documentable damages. Instead, the applicant disproportionately allocated insurance
                    proceeds to business interruption losses, an item not eligible for federal
                    reimbursement.




                            Gulf Coast Recovery: FEMA's Management of the Hazard 

                             Mitigation Component of the Public Assistance Program 


                                                   Page 26
Appendix C
Projects Reviewed with Audit Issues


      #13         Lamar University (1606-DR-TX, PW 1749, 17 different PWs)
 Scope of work:   Project entailed roof replacements at the Gladys City/Boomtown Museum Complex
                  (Museum Complex) and 16 other university buildings.
  Audit Issue:	   Administrative: Ineligible public assistance costs. University records identified that
                  the roofs at the Museum Complex required only general repairs and were not eligible
                  for replacement or 406 Mitigation funding. Those records also identified that roof
                  damage to 16 other university buildings may not have been adequately determined.
                  Also, collateral internal damage to the 16 buildings did not correlate and justify the
                  need for complete roof replacements.




                         Gulf Coast Recovery: FEMA's Management of the Hazard 

                          Mitigation Component of the Public Assistance Program 


                                                Page 27
Appendix D
Section 406–Hazard Mitigation Eligibility and Funding Requirements

                     Section 406 of the Stafford Act provides discretionary authority to fund
                     mitigation measures in conjunction with the repair of a disaster-damaged
                     facility so that the additional measures enhance the ability to resist similar
                     damage in future events. Title 44, Code of Federal Regulations, Section
                     206.226 interprets and codifies the requirements of the Stafford Act and
                     provides clarification on federal funding for hazard mitigation.

                     FEMA’s Disaster Assistance Policy 9526.1 (August 13, 1998 [subsequently
                     revised on July 30, 2007]) provides guidance on the appropriate use of the
                     discretionary funding available under Section 406 of the Stafford Act.
                     FEMA’s Public Assistance Guide 322 provides additional direction on this
                     topic.

                     To be eligible for this discretionary funding, proposed 406 Mitigation
                     measures:

                            Must be appropriate to the disaster damage and must prevent future
                            damage similar to that caused by the declared disaster.

                            Must be applied only to the damaged element(s) of a facility. This
                            criterion is particularly important when repairing a portion of a system.

                            Cannot increase risk or cause adverse effects to the facility or to other
                            property.

                            Must consist of work that is above and beyond the eligible work
                            required to return the damaged facility to its pre-disaster design, and
                            the funding cannot be applied to replacement buildings.

                     In addition, the 406 Mitigation measure must be cost-effective. The measure
                     may amount to up to 15% of the project’s repair costs or up to 100% if FEMA
                     has determined that the measure is cost-effective. If the measure’s cost
                     exceeds the project’s repair cost, the cost-effectiveness must be demonstrated
                     through an acceptable BCA. FEMA must approve the 406 hazard mitigation
                     measure to ensure eligibility, technical feasibility, environmental and
                     historical compliance, and cost-effectiveness.




                         Gulf Coast Recovery: FEMA's Management of the Hazard 

                          Mitigation Component of the Public Assistance Program 


                                                Page 28
Appendix E
Major Contributors to This Report

                     Robert J. Lastrico, Western Regional Director
                     Humberto Melara, Supervisory Auditor
                     Ravinder Anand, Auditor
                     Arona Maiava, Auditor
                     Curtis Johnson, Auditor
                     Willard Stark, Auditor
                     Carlos Feliciano, Analyst




                         Gulf Coast Recovery: FEMA's Management of the Hazard 

                          Mitigation Component of the Public Assistance Program 


                                                Page 29
Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      FEMA Assistant Administrator, Grant Programs Directorate
                      FEMA Assistant Administrator, Disaster Assistance Directorate
                      FEMA Director, Office of Policy and Program Analysis
                      FEMA Director, Office of Management
                      FEMA Audit Liaison (DP7W05/09-047-EMO-FEMA)
                      FEMA Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                          Gulf Coast Recovery: FEMA's Management of the Hazard 

                           Mitigation Component of the Public Assistance Program 


                                                 Page 30
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
